SEC.gov |  Contract for Temporary Clerical Services
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Contract for Temporary Clerical Services
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
AUDIT MEMORANDUM - Contract for temporary clerical services (PI03-25)
August 21, 2003
To: Ken Fogash
Jayne Seidman
Giovanni Prezioso
From: Walter Stachnik
Re: Contract for temporary clerical services (PI03-25)
We recently received allegations about a contract for temporary clerical services (Contract No. 02-D-0353) in the Office of Filings and Information Services (OFIS).  The contract was issued to a non-profit company under the National Industries for the Blind/National Industries for the Severely Disabled (NIB/NISH) program.
The allegations were that the contract cost significantly more ($100,000) than the prior contract under a General Services Administration (GSA) schedule.  It was further alleged that the Procurement and Contracting Branch in the Office of Administrative and Personnel Management (OAPM) required the award to NIB/NISH, citing legal requirements that did not apply in this case.
We discussed this contract with contracting staff in OAPM and OFIS, and reviewed relevant documentation.  OAPM indicated that OFIS's requirement was for clerical support on a long-term basis.  OAPM stated that use of a temporary services firm did not meet the requirements in 5 CFR § 300.503, since temporary services employees may only be hired for brief or intermittent use (initially 120 workdays, with a maximum limit of 240 workdays).
OAPM indicated that the requirement could be competed on a non-temporary basis with a set period of performance, but that the GSA temporary services schedule contract could not be used.  OAPM indicated that it doubted whether competing this requirement on a non-temporary basis would save much money.  It recommended use of a firm under the NIB/NISH program.
OFIS staff confirmed that this contract was significantly more expensive than the prior GSA schedule contract (approximately $200,000 versus $100,000).  Because of the price differential, OFIS would prefer to use a contractor from a GSA schedule rather than using NIB/NISH, if such use is allowed.
OFIS stated that GSA indicated that the Commission could legally use its schedule to meet its needs.  In addition, OFIS indicated that the NIB/NISH itself indicated that the Commission was not required to use an NIB/NISH firm.
This issue (i.e., whether OFIS can use a GSA schedule contract to meet its temporary clerical needs) concerns a matter of contract law that the Office of General Counsel should resolve.
Recommendation A
In consultation with OAPM and OFIS, the Office of General Counsel should prepare a legal opinion on the issue discussed above, and provide it to those offices.
cc: Jim McConnell
Darlene Pryor
Kim Davis
Greg Jones
George Brown
Peter Derby
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us